Audit Report



Return
    to the USDOJ/OIG Home Page




Compliance with Standards Governing Combined DNA Index System Activities Broward County Sheriff's Office Crime Laboratory
Fort Lauderdale, Florida

GR-80-00-009


April 2000
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Broward County (Florida) Sheriff's Office Crime Laboratory (Laboratory).  CODIS is a national information repository maintained by the FBI that permits the storing, maintaining, tracking, and searching of DNA specimen information in order to facilitate the exchange of DNA information by law enforcement agencies.  The Laboratory received two grants funded through the Department of Justice, one in 1996 and one in 1998, totaling $423,815.
Our audit generally covered the period from the implementation of CODIS at the Laboratory in March 1994 through August 1999.  The objectives of the audit were to determine if the Laboratory:

complied with the FBI's Quality Assurance Standards (QAS) and National DNA Index System (NDIS) requirements, and
uploaded DNA profiles (a computerized record containing DNA characteristics used for identification) to NDIS that were complete, accurate, and in accordance with the QAS and NDIS requirements.

We found that the Laboratory uploaded complete and accurate DNA profiles to NDIS; and, although the Laboratory generally complied with the QAS and NDIS requirements, we noted the following instances of noncompliance.

The Laboratory did not comply with external proficiency testing requirements.  Some tests were graded in-house instead of being returned to the test provider for evaluation.  The NDIS Procedures Manual requires that qualified DNA analysts submit at least two external proficiency tests to the external test provider each year.
The Laboratory uploaded two inappropriate DNA profiles to NDIS.  These profiles matched the DNA profiles of crime victims.  The NDIS requirements prohibit laboratories from uploading DNA profiles that are unambiguously attributable to a victim or to known individuals other than the suspected perpetrator(s).
The Laboratory maintained evidence that had already been analyzed in unlocked freezers.  The QAS requires laboratories to have secure areas for evidence storage.
The Laboratory's analytical procedures were not approved by its technical leader or laboratory management as required by the QAS.

The audit results are discussed in greater detail in the Findings and Recommendations and Other Reportable Matters sections of this report.  Our audit scope and methodology appear in Appendix I; Appendix II contains background information; and the audit criteria are discussed in Appendix III.  The history and status of DNA testing and CODIS use at the Laboratory appear in Appendix IV.